                                                                             Report No. DODIG-2014-089




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JUNE 30, 2014




                     Implementation of 2011 Generally
                     Accepted Government Auditing
                     Standards Independence Standards
                     at the DoD Audit Organizations




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste, & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Implementation of 2011 Generally Accepted
                                       Government Auditing Standards Independence
                                       Standards at the DoD Audit Organizations


June 30, 2014

Objective                                             Recommendations
We conducted this review to determine                 We recommend that the specified DoD agencies or audit
whether     the  DoD    audit   organizations         organizations:
implemented the December 2011 generally
accepted government auditing standards                   •	 establish internal policies or procedures implementing
(GAGAS) independence standards and whether                  the December 2011 GAGAS independence standards,
the standards were being followed. We
                                                         •	 create internal policies and procedures detailing how
reviewed 16 of the 21 DoD audit organizations
                                                            nonaudit service requests will be processed,
(see Appendix A Scope and Methodology for
our rationale).                                          •	 perform all the required independence analyses and
                                                            document the results before accepting a nonaudit service,

Findings                                                 •	 include policies and procedures for performing control
Of the 16 DoD audit organizations reviewed,                 self-assessments and continuous auditing, and
10 had fully implemented, 4 had partially
                                                         •	 remove language from agency operational procedures that
implemented, and 2 had not implemented the
                                                            appears to direct the functions of an internal review office.
2011 GAGAS independence standards.

In     addition,  four   audit    organizations       Management Comments and
performing nonaudit services did not fully            Our Response
assess and document potential impairments to
                                                      Five of the seven respondents agreed with our
independence as required by GAGAS 3.34.
                                                      recommendations. The Auditor General, Department of the
GAGAS 3.34 requires the auditor to assess the
                                                      Army agreed with the intent of our recommendation but only
skill, knowledge, or experience of the audited
                                                      partially addressed all the specifics of the recommendation,
entity management’s designated individual who
                                                      and the Commander, Naval Supply Systems Command,
will oversee and accept responsibility for the
                                                      responding for the Chief Executive Officer, Naval Exchange
nonaudit service.
                                                      Service Command, disagreed with two recommendations and
                                                      did not adequately address one of the four recommendations.
Also,   some      auditors’    statements  of
                                                      We request these two agencies provide comments to this final
independence     were    either    missing or
                                                      report. Please see the Recommendations Table on the back
improperly completed.        In addition, one
                                                      of this page.
audit organization failed to comply with the
standards when performing control self-
assessments and continuous auditing.



Visit us on the web at www.dodig.mil


                                                                          DODIG-2014-089 (Project No. D2013-DAPOIA-0011.001) │ i
                   Recommendations Table
                                                                        Recommendations       No Additional
                                          Management                    Requiring Comment   Comments Required
                    The Auditor General, Department of the Army         B.1
                    Director, Defense Information Systems Agency                            A.2
                    Director, National Geospatial-Intelligence Agency                       A.2
                    Director, Missile Defense Agency                                        A.3, B.1
                    Commander, United States Special Operations                             A.1
                    Command
                    Director and Chief Executive Officer, Army and                          A.3, B.1
                    Air Force Exchange Service
                    Chief Executive Officer, Naval Exchange Service     B.1, B.2, and B.3   A.1
                    Command

                   Provide management comments by July 30, 2014.




ii │ DODIG-2014-089 (Project No. D2013-DAPOIA-0011.001)
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500


                                                                             June 30, 2014

MEMORANDUM FOR COMMANDER, UNITED STATES SPECIAL OPERATIONS COMMAND
		             DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
		             DIRECTOR, MISSILE DEFENSE AGENCY
		             DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE AGENCY
		             AUDITOR GENERAL, DEPARTMENT OF THE ARMY
		             DIRECTOR AND CHIEF EXECUTIVE OFFICER, ARMY AND AIR FORCE
			             EXCHANGE SERVICE
		             CHIEF EXECUTIVE OFFICER, NAVAL EXCHANGE SERVICE COMMAND

SUBJECT: Implementation of the 2011 Generally Accepted Government Auditing
	        Standards Independence Standards at the DoD Audit Organizations
	        (Report No. DODIG-2014-089)

We are providing this report for your review and comment. Five of the seven respondents
fully concurred with their specific recommendation(s). However, the Auditor General,
Department of the Army concurred with the intent of our recommendation but only
partially addressed all the specifics of the recommendation, and the Commander, Naval
Supply Systems Command, responding in place of the Chief Executive Officer, Naval
Exchange Service Command, nonconcurred with two and did not adequately address
one of the four recommendations.

We considered management comments on a draft of this report when preparing the
final report. DoD Directive 7650.3 requires that recommendations be resolved promptly.
Comments from the Directors, Defense Information Systems Agency, National Geospatial-
Intelligence Agency, and Missile Defense Agency, the Commander, United States Special
Operations Command, and the Director and Chief Executive Officer, Army and Air Force
Exchange Service were responsive, and we do not require additional comments. The Auditor
General, Department of the Army also provided comments that were partially responsive
on Recommendation B.1. The Commander, Naval Supply Systems Command also provided
comments to Recommendations A.1, B.1, B.2, and B.3. Comments to Recommendation A.1
were responsive, and we do not require additional comments. However, comments to
Recommendations B.1, B.2, and B.3 did not adequately address the recommendations.
Therefore, we request additional comments on Recommendation B.1 (Auditor General,
Department of the Army) and Recommendations B.1, B.2, and B.3 (Commander, Naval
Supply Systems Command) by July 30, 2014.

Please provide comments that conform to the requirements of DoD Directive 7650.3.
Please send a PDF file containing your comments to the email address cited in the
last paragraph on this memorandum.              Copies of your comments must have the
actual signature of the authorizing official for your organization. We cannot accept
the /Signed/ symbol in place of the actual signature.



                                                                                     DODIG-2014-089 │ iii
                  We appreciate the courtesies extended to the staff. Please direct questions to
                  Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), carolyn.davis@dodig.mil.




                  	                                            Randolph R. Stone
                  	                                            Deputy Inspector General
                  	                                            Policy and Oversight
                  cc:
                  Director, Defense Commissary Agency
                  Director, Defense Contract Management Agency
                  Director, Defense Finance and Accounting Service
                  Director, Defense Intelligence Agency
                  Director, Defense Logistics Agency
                  Director, National Reconnaissance Office
                  Director, National Security Agency
                  Deputy Inspector General for Audit, DoD Office of Inspector General
                  Auditor General, Naval Audit Service
                  Auditor General, Air Force Audit Agency
                  Assistant Deputy Commandant for Programs and Resources, and Fiscal Director,
                    United States Marine Corps




iv │ DODIG-2014-089
Contents
Introduction
Objectives_________________________________________________________________________________________1
Background ______________________________________________________________________________________1

Finding A. DoD Audit Organizations’ Internal
Policies for Implementing the 2011 GAGAS
Independence Standards_______________________________________________________2
GAGAS Independence Standards _______________________________________________________________2
Quality of the Independence Policies___________________________________________________________4
Recommendations, Management Comments, and Our Response____________________________4

Finding B. DoD Audit Organizations’ Adherence to the
2011 GAGAS Independence Standards_______________________________8
GAGAS-Required Analysis and Documentation for Nonaudit Services ______________________8
Missing or Improperly Completed Auditor Statements of Independence___________________9
Naval Exchange Service Command Internal Audit’s Application
   of the GAGAS Conceptual Framework____________________________________________________ 10
Recommendations, Management Comments, and Our Response__________________________ 12

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 17
Appendix B. GAGAS Conceptual Framework for Independence___________________________ 19
Appendix C. DoD Audit Organizations’ Policies on Independence_________________________ 20
Appendix D. Best Practice for Formatting Auditor Statement of Independence__________ 22

Management Comments
The Auditor General, Department of the Army Comments_________________________________ 23
Director, Defense Information Systems Agency Comments_________________________________ 25
Director, National Geospatial-Intelligence Agency Comments_____________________________ 27
Director, Missile Defense Agency Comments________________________________________________ 35
Commander, United States Special Operations Command Comments_____________________ 37
Director and Chief Executive Officer, Army and Air Force
    Exchange Service Comments_____________________________________________________________ 38
Commander, Naval Supply Systems Command Comments_________________________________ 39

Acronyms and Abbreviations______________________________________________ 43
                                                                                                       DODIG-2014-089 │ v
                                                                                                                                   Introduction




Introduction
Objectives
We conducted this review to determine whether the DoD audit organizations
implemented             the      December          2011        generally        accepted        government            auditing
standards (GAGAS) independence standards and whether the standards were being
followed. See Appendix A for our scope and methodology.


Background
Generally Accepted Government Auditing Standards
The Government Accountability Office (GAO) revised GAGAS in December 2011.1
The most significant area that changed was the independence standards (to
include nonaudit services). GAO created a new GAGAS Conceptual Framework for
Independence (see Appendix B for the framework) to provide a means for auditors
to assess their independence for activities that are not expressly prohibited in
the standards.              This more principles-based approach to analyzing independence
provides the framework for auditors to assess the unique facts and circumstances
that arise during their work that could impair independence. This new framework
covers auditor, organizational, and audit (to include nonaudit services) independence.

In addition, a new requirement was added to nonaudit services: to assess and evaluate
the audited entity management’s ability and willingness to oversee the nonaudit
service and for management to designate an individual who possesses suitable skill,
knowledge, or experience, and that the individual understands the service to be
performed sufficiently to oversee it.




	1	
      The 2011 revision of generally accepted government auditing standards is effective for financial audits and attestation
      engagements for periods ending on or after December 15, 2012, and for performance audits beginning on or after
      December 15, 2011. Early implementation was not permitted.




                                                                                                                                DODIG-2014-089 │ 1
Finding A




                 Finding A
                 DoD Audit Organizations’ Internal Policies for
                 Implementing the 2011 GAGAS Independence
                 Standards
                 Of the 16 DoD audit organizations reviewed, 10 had fully implemented, 4 had
                 partially implemented, and 2 had not implemented the 2011 GAGAS independence
                 standards.     As a result, potential organizational impairments to independence
                 existed for the six audit organizations that had not fully implemented the new
                 independence standards.




                 GAGAS Independence Standards
                 The GAO December 2011 GAGAS revision requires audit organizations to establish
                 policies and procedures on independence. GAGAS 3.88 states:

                              Audit organizations should establish policies and procedures on
                              independence, legal, and ethical requirements that are designed to
                              provide reasonable assurance that the audit organization and its
                              personnel maintain independence and comply with applicable legal
                              and ethical requirements. Such policies and procedures assist the audit
                              organization to: (a) communicate its independence requirements to
                              its staff, and (b) identify and evaluate circumstances and relationships
                              that create threats to independence, and take appropriate action
                              to eliminate those threats or reduce them to an acceptable level by
                              applying safeguards, or, if consider appropriate, withdraw from the
                              audit where withdrawal is not prohibited by law or regulation.

                 The December 2011 GAGAS revision included a new conceptual framework for
                 independence. GAGAS 3.08 states that this framework should be used by all auditors
                 to assess their independence in three areas for any project undertaken:                 auditor,
                 organizational, and audit (to include nonaudit services).

                          •	 Auditor:     An individual auditor needs to evaluate whether there are
                              threats to his/her independence. GAGAS 3.22 states:

                                 Auditors should determine whether identified threats to
                                 independence are at an acceptable level or have been eliminated
                                 or reduced to an acceptable level. A threat to independence is
                                 not acceptable if it either (a) could impact the auditor’s ability to
                                 perform an audit without being affected by influences that




2 │ DODIG-2014-089
                                                                                     Finding A



     compromise professional judgment or (b) could expose the
     auditor or audit organization to circumstances that would cause a
     reasonable and informed third party to conclude that the integrity,
     objectivity, or professional skepticism of the audit organization,
     or a member of the audit team, had been compromised.

•	 Organizational: An audit organization needs to be free of impairments
  to independence, both externally and internally. DoD audit organizations
  generally fall under the category of an internal audit organization.

  GAGAS 3.31 states:

     . . . internal auditors who work under the direction of the
     audited entity’s management are considered independent for
     the purposes of reporting internally if the head of the audit
     organization meets all the following criteria: (a) is accountable
     to the head or deputy head of the entity or those charged with
     governance; (b) reports the audit results both to the head or
     deputy head of the government entity and to those charged with
     governance; (c) is located organizationally outside the staff or line-
     management function of the unit under audit; (d) has access to
     those charged with governance; and (e) is sufficiently removed
     from political pressures to conduct audits and report findings,
     opinions, and conclusions without fear of political reprisal.


•	 Audit (to include nonaudit services):        All work performed at the audit
  level must be free of impairments to independence. One of the biggest
  threats to independence for an audit organization is the performance
  of a nonaudit service.      The 2011 GAGAS revision contains a significant
  amount of guidance for evaluating threats to an audit organization’s
  independence; this must be done before agreeing to perform a nonaudit
  service. Two key provisions in determining whether to accept a nonaudit
  service are stated in GAGAS  3.34 and 3.35.            GAGAS 3.34 requires the
  auditor to assess the audited entity management’s ability to oversee
  the nonaudit service and to determine whether the management’s
  designated individual possesses suitable skill, knowledge, or experience.
  GAGAS 3.35 states:

     If an auditor were to assume management responsibilities for
     an audited entity, the management participation threats created
     would be so significant that no safeguards could reduce them to
     an acceptable level. Management responsibilities involve leading
     and directing an entity, including making decisions regarding the
     acquisition, deployment and control of human, financial, physical,
     and intangible resources.



                                                                               DODIG-2014-089 │ 3
Finding A



                 Quality of the Independence Policies
                 Most of the DoD audit organizations implemented internal policies on or after
                 the December 2011 issuance of GAGAS to guide their organizations with the new
                 independence standards (to include nonaudit services).        See Appendix C for a
                 detailed summary of our review.

                 The quality of the internal policies ranged from just a reference to the new standards
                 to comprehensive internal guidance. Internal policies that just referenced the new
                 standard generally stated that the independence standards were revised and referred
                 to the December 2011 version of GAGAS. The comprehensive policies outlined specific
                 procedures to follow to assess and document auditor, organizational, and audit
                 (to include nonaudit services) independence. For example, some policies contained
                 requirements for both annual and project-specific auditor independence statements.
                 In addition, some policies showed that the audit organization reported to the head
                 of the agency, and other policies contained detailed instructions on how to process
                 a request for a nonaudit service.

                 Every DoD audit organization is unique in size, mission, and complexity. As such,
                 a one‑size-fits-all policy for independence is not appropriate. However, each
                 organization must ensure that their internal policies adhere to the standards
                 promulgated in GAGAS. Our recommendations are directed to DoD audit organizations
                 that either did not create internal policies implementing the December 2011
                 revision of the GAGAS independence standards or only partially created new policies
                 (for example, performed nonaudit services but had no internal policy on receiving and
                 documenting the request for the service and assessing any threat to independence).


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation A.1
                 We recommend that the Commander, United States Special Operations
                 Command, and the Chief Executive Officer, Navy Exchange Service Command,
                 ensure their audit organizations create internal policies implementing
                 the December 2011 generally accepted government auditing standards
                 independence standards.




4 │ DODIG-2014-089
                                                                                            Finding A



Commander, United States Special Operations Command Comments
The Commander, United States Special Operations Command, agreed and stated its
Audit Division of the Office of Inspector General updated its independence policies
on April 17, 2013, and included this policy in its updated Standard Operating
Procedure dated June 27, 2013.


Our Response
Comments from the Commander, United States Special Operations Command
addressed all specifics of the recommendation. No additional comments are required.


Commander, Naval Supply Systems Command Comments
The Commander, Naval Supply Systems Command, responding for the Chief
Executive Officer, Naval Exchange Service Command, agreed with the intent of the
recommendation.     The Commander stated that NEXCOM’s internal policies and
procedures will be reviewed annually to ensure they reference the current version
of the generally accepted government auditing standards (Yellow Book). He further
stated that NEXCOM’s Office of Internal Audit (OIA) procedural manual is general
in nature by design and that the NEXCOM OIA recognizes the Yellow Book as
the overarching guidance.


Our Response
Comments from the Commander, Naval Supply Systems Command, addressed the
intent of the recommendation. No additional comments are required from NEXCOM.


Recommendation A.2
We recommend that the Directors, Defense Information Systems Agency, and
National Geospatial-Intelligence Agency, ensure their audit organizations fully
implement the December 2011 generally accepted government auditing
standards independence standards.


Directors, Defense Information Systems Agency, and National
Geospatial-Intelligence Agency Comments
The Directors, Defense Information Systems Agency, and National Geospatial-
Intelligence Agency agreed with the recommendation.         Both agencies provided




                                                                                      DODIG-2014-089 │ 5
Finding A



                 updated internal audit policies dated January 2014 and March 21, 2014,
                 respectively, fully implementing the December 2011 generally accepted government
                 auditing standards independence standards.


                 Our Response
                 Comments from the Directors, Defense Information Systems Agency, and National
                 Geospatial-Intelligence Agency addressed all specifics of the recommendation.   No
                 additional comments are required.


                 Recommendation A.3
                 We recommend that the Director, Missile Defense Agency, and the Director
                 and Chief Executive Officer, Army and Air Force Exchange Service, ensure that
                 their audit organizations create internal policies and procedures detailing
                 how nonaudit service requests will be assessed and documented for potential
                 impairments to independence.


                 Director, Missile Defense Agency Comments
                 The Director, Missile Defense Agency, agreed with the recommendation.      MDA is
                 updating their internal audit policies and procedures for assessing and documenting
                 potential impairments to independence for nonaudit services. The estimated
                 completion date is the fourth quarter of FY 2014.


                 Our Response
                 Comments from the Director, Missile Defense Agency, addressed all specifics of the
                 recommendation.     We request that the Director, Missile Defense Agency, provide
                 a copy of the updated policies and procedures upon issuance.         No additional
                 comments are required.


                 Director and Chief Executive Officer, Army and Air Force Exchange
                 Service Comments
                 The Director and Chief Executive Officer, Army and Air Force Exchange Service,
                 agreed with the recommendation. AAFES provided new internal audit policy
                 dated December 31, 2013, which establishes procedures detailing how nonaudit
                 service requests will be assessed and documented for potential impairments to
                 independence.




6 │ DODIG-2014-089
                                                                                     Finding A



Our Response
Comments from the Director and Chief Executive Officer, Army and Air Force
Exchange Service, addressed all specifics of the recommendation.   No additional
comments are required.




                                                                               DODIG-2014-089 │ 7
Finding B




                 Finding B
                 DoD Audit Organizations’ Adherence to the 2011
                 GAGAS Independence Standards
                 Of the five audit organizations that performed a nonaudit service, four did not fully
                 assess and document potential independence impairments before agreeing to perform
                 the service. Also, some auditors’ statement of independence were either missing or
                 improperly completed. In addition, one audit organization failed to comply with the
                 standards when performing control self-assessments and continuous auditing. All of
                 these conditions placed the audit organizations in a position of potentially impairing
                 their independence.



                 GAGAS-Required Analysis and Documentation for
                 Nonaudit Services
                 The December 2011 revision of the GAGAS independence standards provided more
                 comprehensive guidance to auditors for assessing potential threats to independence
                 when evaluating whether to provide a nonaudit service. One key area of assessment
                 was determining the ability of management at the audited entity to oversee the
                 nonaudit service.

                 GAGAS 3.34 states:

                                  Before an auditor agrees to provide a nonaudit service to an
                                  audited entity, the auditor should determine whether providing
                                  such a service would create a threat to independence, either by
                                  itself or in aggregate with other nonaudit services provided, with
                                  respect to any GAGAS audit it performs. A critical component of
                                  this determination is consideration of management’s2 ability to
                                  effectively oversee the nonaudit service to be performed. The
                                  auditor should determine that the audited entity has designated an
                                  individual who possesses suitable skill, knowledge, or experience,
                                  and that the individual understands the services to be performed
                                  sufficiently to oversee them. The individual is not required to
                                  possess the expertise to perform or reperform the services. The
                                  auditor should document consideration of management’s ability to
                                  effectively oversee nonaudit services to be performed.


                 	2	
                       Management, as referred to in GAGAS 3.34, refers to the audited entity’s management, not the DoD audit
                       organization’s management.




8 │ DODIG-2014-089
                                                                                                                      Finding B



Additionally, GAGAS 3.59(c) states:

                 [D]ocument consideration of audited entity management’s ability
                 to effectively oversee a nonaudit service to be provided by the auditor
                 as indicated in [GAGAS] paragraph 3.34.


Three of the five DoD audit organizations that were performing nonaudit
services and had nonaudit service projects that fell within the parameters of
our review period had issued policy, created a memorandum of understanding
or held meetings (or both), or documented what services were to be provided
and who was responsible for the service being provided.                                       However, four3 of
the five organizations did not determine and document whether the audited
entity’s management designated an individual who possessed suitable skill,
knowledge, or experience, and that the individual understood the services
to       be       performed           sufficiently          to      oversee       them,      as    required   by
GAGAS 3.34. Our review of the project files, to include the issued final memo or
report, did not disclose any impairment to independence because of this oversight.

A best practice for consideration to meet the requirements of GAGAS 3.34
would be for the auditor to obtain the position description, a resume, or a
biography          for     the     designated         individual.        Then,    use     professional   judgment
to determine if the information contained in these documents is adequate to
meet the intent of GAGAS 3.34, and document this analysis in the project file as
required by GAGAS 3.59(c).


Missing or Improperly Completed Auditor Statements
of Independence
For most projects we reviewed, there were instances of missing or improperly
completed auditor statements of independence.                                     The improperly completed
statements ranged from not being signed by the supervisor to a potential
independence impairment being listed but no documented evidence from the
supervisor stating how this potential impairment would be mitigated.

Although GAGAS does not specifically require auditor statements of independence,
it does require audit organizations to establish policies and procedures on
independence.              Some statement of independence forms created by the audit
organizations referenced the GAGAS 2007 revision, some were in draft form and

	3	
      See Recommendation B.1 for a listing of the four DoD audit organizations.




                                                                                                                DODIG-2014-089 │ 9
Finding B



                 referenced the GAGAS 2011 revision, and some were current, completely revised,
                 and referenced the GAGAS 2011 revision.                                   However, because the concept of
                 auditor independence has not changed from previous revisions, any statement of
                 independence form declaring an auditor’s independence and having supervisory
                 review and concurrence would satisfy the intent of documenting auditor
                 independence.             Therefore, our review determined whether an audit organization
                 required statements of independence to be completed by their auditors, and
                 if so, were they completed and filed. Because of the minor nature of the issues
                 found, we did not make any recommendations in this report to any DoD audit
                 organization concerning statements of independence. Appendix D contains suggested
                 best practice for audit organizations to use in formatting auditor statements
                 of independence.


                 Naval Exchange Service Command Internal Audit’s
                 Application of the GAGAS Conceptual Framework
                 We reviewed the Naval Exchange Service Command Internal Audit’s (NEXCOM IA’s)
                 control self-assessment (CSA) activities and continuous auditing activities to
                 determine whether those activities complied with the December 2011 GAGAS
                 independence standards4.

                 GAGAS 2.13 states:

                                   When audit organizations provide nonaudit services to entities
                                   for which they also provide GAGAS audits, they should assess
                                   the impact that providing those nonaudit services may have on
                                   auditor and audit organization independence and respond to
                                   any identified threats to independence in accordance with the
                                   GAGAS independence standard.


                 GAGAS 3.03 (b) states:

                                   Independence in Appearance

                                   The absence of circumstances that would cause a reasonable
                                   and informed third party, having knowledge of the relevant
                                   information, to reasonably conclude that the integrity, objectivity,
                                   or professional skepticism of an audit organization or member
                                   of the audit team had been compromised.




                 	4	
                       We became aware in November 2012 during a DoD Small Audit Working Group Meeting that NEXCOM was performing
                       control self-assessments and continuous auditing – activities not normally performed by most DoD audit organizations.
                       Therefore, we decided to review these activities at NEXCOM as part of this project.

10 │ DODIG-2014-089
                                                                                                                                Finding B



GAGAS 3.20 states:

                  Auditors should evaluate threats to independence using the
                  [GAGAS] conceptual framework when the facts and circumstances
                  under which the auditors perform their work may create or
                  augment threats to independence. Auditors should evaluate threats
                  both individually and in the aggregate because threats can have a
                  cumulative effect on an auditor’s independence.


Control Self-Assessments
CSA is a technique that allows managers and work teams directly involved in business
units, functions, or processes to participate in assessing the organization’s risk
management and control processes. To better understand NEXCOM’s CSA activities,
we observed NEXCOM Internal Audit’s staff and the entity’s management conducting
a CSA at a Navy Exchange store. We concluded that NEXCOM Internal Audit should
include in their audit policies how they will safeguard and maintain their independence
when performing CSA activities.


Continuous Auditing Activities
To better understand NEXCOM IA’s continuous auditing activities and their
role in the government purchase card program, we interviewed NEXCOM
IA staff and a NEXCOM contracting office staff member and reviewed the
NEXCOM            government          purchase         card       program       regulations        and     procedures.
During our review, we were informed by NEXCOM IA that the continuous
auditing         activities      they      conducted         in     the    NEXCOM         Government           Purchase
Card program were a pilot program and their continuous auditing activities
had not been fully implemented.                          However, NEXCOM IA personnel stated that
once the continuous auditing activities are fully implemented, they will expand
them to other areas of NEXCOM and conduct continuous auditing activities as
performance audits.

The         NEXCOM          Corporate          Contracts          office    internal       operating        procedure5
identifies the responsibilities of the NEXCOM offices and authorized card-
holders in the purchase card program, the allowed uses for the purchases card,
the internal controls over the purchase card program, and the internal and
external reviews of the program.                      The internal operating procedure identifies the
NEXCOM IA as the NEXCOM organization that will schedule and conduct a purchase
card desk audit or onsite review.

	 5	
        “The Navy Non-Appropriated Fund Purchase Card Program - Internal Operating Procedure, Revision Date: 12/8/2009
       (edited 10/2012).”

                                                                                                                         DODIG-2014-089 │ 11
Finding B



                 During our review of the internal operating procedure, we noted that the
                 procedure contained language directing the NEXCOM IA to perform transactional
                 reviews, internal management control reviews, and reviews of other specific
                 purchase elements.          The internal operating procedure also contained detailed
                 guidance on how NEXCOM IA would perform these reviews.                        We consider this
                 to be a potential independence impairment, as it appears the operational unit was
                 directing NEXCOM’s IA function.

                 Further, we determined that the NEXCOM IA continuous auditing activities as
                 considered under the pilot program were a nonaudit service. NEXCOM did not apply
                 the 2011 GAGAS independence standards to their continuous auditing activities pilot
                 program for the NEXCOM purchase card. The acceptability of, and GAGAS compliance
                 over, the conduct of continuous auditing as a performance audit was not determined
                 as part of this review. In addition, NEXCOM IA did not document its consideration of
                 the audited entity management’s ability to effectively oversee the nonaudit services it
                 was performing, to include documenting the assigned individual’s skill, knowledge,
                 or experience.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation B.1
                 We recommend that the Auditor General, Department of the Army; the Director,
                 Missile Defense Agency; the Director and Chief Executive Officer, Army
                 and Air Force Exchange Service; and the Chief Executive Officer, Navy
                 Exchange Service Command, ensure their audit organizations perform all the
                 required independence analyses and document the results before accepting a
                 nonaudit service.


                 Auditor General, Department of the Army Comments
                 The Auditor General, Department of the Army, agreed with the intent of the
                 recommendation as it relates to documenting the results of their independence
                 analysis.        However, the Auditor General did not agree that his auditors
                 were deficient in the independence analysis as required by GAGAS 3.34.
                 The Auditor General stated that they considered the audited entity’s management
                 subject     matter   experts   and    as   such,    were    fully    aware    of   the    nonaudit
                 service they requested and could determine if it met their requirements.
                 Further,    as    subject    matter   experts,     they    also     had   sufficient     knowledge
                 of the area and had the ability to either accept or reject the results.                       The


12 │ DODIG-2014-089
                                                                                                       Finding B



Auditor General also stated that before accepting the nonaudit service, they
performed a thorough and comprehensive evaluation to determine if the
requested nonaudit service would impair the agency’s or the auditors’ independence.
The evaluation included determining the client’s understanding of the results
and the services.        He further stated that the client was provided with a
memorandum of understanding describing the services agreed to and how the
results can and cannot be used.


Our Response
Comments from the Auditor General, Department of the Army, did not address
the specifics of the recommendation.         GAGAS 3.34 requires the auditor to assess
the audited entity management’s ability to oversee the nonaudit service and to
determine whether the management’s designated individual possesses suitable
skill, knowledge, or experience.       We acknowledged that the Army Audit Agency
created memoranda of understanding and performed other procedures when
agreeing to perform a nonaudit service.              However, no evidence was provided
showing how the auditors evaluated and documented the skill, knowledge, or
experience of the designated management individual, as required by GAGAS 3.34.
The Auditor General’s comments did not address GAGAS 3.34.                         Our report
provided a best practice for some types of documentation that would satisfy the
GAGAS      requirement   of   determining      whether      the   management’s      designated
individual possessed suitable skill, knowledge, or experience.                We request that
the Auditor General, Department of the Army, reconsider his position on the
recommendation and provide comments in response to the final report.


Director, Missile Defense Agency Comments
The Director, Missile Defense Agency, agreed with the recommendation.                        MDA
is updating its internal audit policies and procedures to include guidance
to   evaluate   and   document     the     skills,   knowledge,     or   experience     of    the
management-appointed individual overseeing the nonaudit service.                The estimated
completion date is the fourth quarter of FY 2014.


Our Response
Comments from the Director, Missile Defense Agency, addressed all specifics
of   the   recommendation.        We     request     that   the   Director,   Missile   Defense
Agency, provide a copy of the updated policies and procedures upon issuance.
No additional comments are required.




                                                                                                DODIG-2014-089 │ 13
Finding B



                 Director and Chief Executive Officer, Army and Air Force Exchange Service
                 Comments
                 The Director and Chief Executive Officer, Army and Air Force Exchange Service,
                 agreed with the recommendation.          AAFES provided new internal audit policy
                 dated     December    31,   2013,   which     establishes     procedures     on   evaluating
                 and documenting the skills, knowledge, or experience of the management-appointed
                 individual overseeing the nonaudit service.


                 Our Response
                 Comments from the Director and Chief Executive Officer, Army and Air Force
                 Exchange Service, addressed all specifics of the recommendation.              No additional
                 comments are required.


                 Commander, Naval Supply Systems Command Comments
                 The Commander, Naval Supply Systems Command, responding for the Chief Executive
                 Officer, Naval Exchange Service Command, agreed with the recommendation,
                 stating that if and when NEXCOM OIA accepts to perform a nonaudit service,
                 the     proper   documentation   will   be    prepared   in     accordance    with   GAGAS.
                 The Commander also stated that the NEXCOM OIA uses control self-assessments
                 and continuous auditing to facilitate traditional audits, and does not consider
                 these processes to be nonaudit services.         Further, the Commander stated that
                 GAGAS 3.40 specifies that routine activities performed by auditors that relate
                 directly to the performance of an audit, such as providing advice and responding
                 to questions as part of an audit, are not nonaudit services, according to GAGAS.
                 Such routine activities generally involve providing advice or assistance to the
                 entity on an informal basis as part of an audit.         Routine activities typically are
                 insignificant in terms of time incurred or resources expended and generally do not
                 result in a specific project or engagement or in the auditors producing a formal
                 report or other formal work product.


                 Our Response
                 Comments from the Commander, Naval Supply Systems Command partially
                 addressed the recommendation.       NEXCOM OIA stated its review of the NEXCOM
                 government purchase card program, using ACL Services Ltd. ACL Audit Exchange
                 software program, was a continuous audit.         However, based on our observation,
                 the continuous audit program was not fully developed.            NEXCOM OIA stated that
                 its continuous auditing program was still in a testing phase, and as such, lacked
                 a formal process for reporting findings and recommendations and tracking
                 management’s actions on those recommendations.              During this pilot program, the

14 │ DODIG-2014-089
                                                                                                   Finding B



auditors were providing management, on a monthly, informal basis, all the
anomalies they found when running this continuous auditing program on the
government purchase card transactional database, thereby creating the potential
for independence impairment.            NEXCOM OIA       stated that they were going to
fully implement the ACL Audit Exchange software program to perform audits in
accordance with GAGAS on this and other NEXCOM programs in the near future.
Based on the above, we determined that the way NEXCOM OIA was performing
this continuous auditing pilot program was a nonaudit service, and therefore,
NEXCOM OIA should have performed all the GAGAS-required independence
analyses and documented the results before performing this service to mitigate
any potential independence impairments. Upon NEXCOM OIA’s full implementation
of its continuous auditing program, to include reporting on findings and
recommendations, and tracking management action on those recommendations,
the appearance of a potential independence impairment would no longer exist. We
request the Commander, Naval Supply Systems Command, reconsider his position on
the recommendation and provide comments in response to the final report.


Recommendation B.2
We recommend that the Chief Executive Officer, Naval Exchange Service
Command, ensure that his audit organization revise its internal audit
policies to include procedures for performing control self-assessments and
continuous auditing.


Commander, Naval Supply Systems Command Comments
The Commander, Naval Supply Systems Command, responding for the Chief
Executive     Officer,    Naval   Exchange    Service   Command,       disagreed   with   the
recommendation.          The   Commander     stated   that   control   self-assessments   and
continuous auditing are not nonaudit services; and therefore, a revision to
NEXCOM OIA’s policies would be inaccurate.               He further stated that NEXCOM
OIA’s procedural manual would provide routine internal control advice to
NEXCOM’s management.


Our Response
Comments from the Commander, Naval Supply Systems Command, did not
address the specifics of the recommendation.                 We recognize that performing
control     self-assessments      and   continuous    auditing   are   proactive   measures.
However, since there are no GAGAS standards or International Standards for
the Professional Practice of Internal Auditing (Standards) specifically covering



                                                                                            DODIG-2014-089 │ 15
Finding B



                 control self-assessments and continuous auditing, it would be incumbent upon
                 NEXCOM OIA to document in its internal audit policies how it performs these
                 processes.      We request the Commander, Naval Supply Systems Command,
                 reconsider his position on the recommendation and provide comments in response
                 to the final report.


                 Recommendation B.3
                 We recommend that the Chief Executive Officer, Navy Exchange Service
                 Command, remove the language from “The Navy Non-Appropriated Fund
                 Purchase Card Program-Internal Operating Procedure, Revision Date: 12/8/2009
                 (edited 10/2012)” that appears to direct the functions of the Office of
                 Internal Audit.


                 Commander, Naval Supply Systems Command Comments
                 The Commander, Naval Supply Systems Command, responding for the Chief
                 Executive    Officer,   Naval   Exchange   Service   Command,   disagreed   with   the
                 recommendation.         The Commander stated that NEXCOM OIA’s organizational
                 independence is safeguarded by having NEXCOM OIA reporting directly to the
                 Chief Executive Office, Navy Exchange Service Command.             He further stated
                 that the language in the internal operating procedure manual was prepared by
                 NEXCOM OIA, and this can be viewed as an additional safeguard for NEXCOM
                 OIA’s independence.       Additionally, the Commander stated that this language in
                 the internal operating procedure manual is compliant with GAGAS.


                 Our Response
                 Comments from the Commander, Naval Supply Systems Command, did not address
                 the specifics of the recommendation.       Having an internal audit organization write
                 policy contained in the audited entity’s management’s operational procedural
                 manual creates the potential for impairment to independence.            NEXCOM OIA
                 is responsible for auditing all policies and programs of NEXCOM’s operations and
                 as such, should not write management policy it would potentially be auditing.
                 Additionally, any policies protecting NEXCOM OIA’S independence should be part
                 of NEXCOM OIA’s policies.          We request the Commander, Naval Supply Systems
                 Command, reconsider his position on the recommendation and provide comments
                 in response to the final report.




16 │ DODIG-2014-089
                                                                                                                                   Appendixes




Appendix A
Scope and Methodology
We reviewed the policies of 16 of the 21 DoD audit organizations to determine
whether they implemented the December 2011 GAGAS independence standards.
Five audit organizations were not included in this review for the following reasons.

              •	 The United States Army Internal Review is currently in the process of
                  converting         their       personnel          back       to     GS-0511          auditors         from
                  GS-0510 accountants, and therefore, requires time to reestablish itself
                  as an audit organization.

              •	 The National Guard Bureau Internal Review recently fell back under the
                  oversight authority of the DoD Inspector General (IG) and is scheduled
                  for a full review in the near future.

              •	 The       Defense        Intelligence        Agency        (DIA),      National        Reconnaissance
                  Office (NRO), and National Security Agency (NSA) were, or are being,
                  covered as a part of the normal peer review process that the DoD IG
                  administers, to include review of their policy and implementation relative
                  to the 2011 GAGAS independence standard.6

Of the 16 audit organizations we reviewed, we judgmentally selected projects from
11 of the organizations. We did not select projects from five organizations for the
following reasons.

              •	 The Defense Contract Audit Agency’s policies and procedures are
                  overseen by the DoD Deputy Inspector General, Policy and Oversight,
                  Audit and Policy Oversight, Contract Audit Policy and Oversight division.

              •	 The Defense Contract Management Agency received a pass rating from an
                  external quality control review.

              •	 The Defense Information System Agency and the Defense Logistics
                  Agency will receive a full quality control review in the near future due to
                  their failure in a recent external Quality Control Review.

              •	 The National Geospatial-Intelligence Agency did not have any completed
                  projects within the scope of our review.

	6	
      NSA’s peer review report was issued on February 27, 2013; NRO is currently undergoing a peer review; and DIA is due a
      peer review this fiscal year.




                                                                                                                              DODIG-2014-089 │ 17
Appendixes



                 As part of our review, we:

                          •	 obtained the current policies from the audit organizations;

                          •	 obtained a listing of all performance projects, to include nonaudit
                            services projects;

                          •	 contacted the GAO; and

                          •	 contacted other Federal Offices of Inspectors General to benchmark their
                            implementation of the December 2011 Version of GAGAS.

                                   °° Department of Justice,

                                   °° Department of Housing and Urban Development,

                                   °° House of Representatives,

                                   °° National Aeronautics and Space Administration,

                                   °° National Science Foundation, and

                                   °° Legal Services Corporation.

                 Our review covered the period December 15, 2011, through January 29, 2013. We
                 performed this review from December 2012 through November 2013 in accordance
                 with the standards published in the Council of the Inspectors General on Integrity and
                 Efficiency, “Quality Standards for Inspection and Evaluation,” January 2012.


                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this audit.


                 Prior Coverage
                 During the last 5 years, no prior coverage has been conducted on implementation of
                 the December 2011 GAGAS independence standards.




18 │ DODIG-2014-089
Appendix II
                                                                                                                 Appendixes
GAGAS Conceptual    Framework
             FOR OFFICIAL USE ONLY for                                                                            Appendixes

Independence
 Appendix B
                                                                                                           Append
                                                                                                                x
                                                                                                                Ii




   Appendix B
 GAGAS Conceptual Framework for Independence
   GAGAS Conceptual Framework for Independence
                                                         GAGAS Conceptual Framework
               Assess condition or activity for               for Independence
                 threats to independence

                                                  No
                     Threat identified?                 Proceed

                                Yes
                                                          Is the nonaudit service
               Is threat related to a nonaudit    Yes    specifically prohibited in   Yes
                           service?                     GAGAS paragraphs 3.36 or
                                                            3.49 through 3.58?
                                No
                                                                       No

               Assess threat for significance

                                                  No
                    Is threat significant?              Proceed

                                Yes

                     Identify and apply
                       safeguard(s)



                    Assess safeguard(s)
                       effectiveness

               Is threat eliminated or reduced No
                    to an acceptable level?

                                Yes

               Document nature of threat and
                  any safeguards applied



                                                                                  Independence
                            Proceed                                             impairment; do not
                                                                                     proceed


                                      Source: GAO.
              Source: GAO



                                      Page 215            GAO-12-331G Government Auditing Standards

                              DRAFT REPORT              FOR OFFICIAL USE ONLY
                                                                                        Project No. D2013-DAPOIA-0011.001 │ 13
                                                                                                       DODIG-2014-089 │ 19
Appendixes




                 Appendix C
                 DoD Audit Organizations’ Policies on Independence
                       DoD Audit Organizations’ Policies on Independence (to include Nonaudit Services) Implementing Government
                                                       Auditing Standards, December 2011 Revision

                       DoD Audit                Auditor Independence                   Organizational Independence1                     Nonaudit Services
                      Organization            GAGAS 3.08, 3.20, and 3.88                       GAGAS 3.31                            GAGAS 3.33-3.58, and 3.88

                      AAA                                    YES                                        YES                                         YES
                      AAFES                                  YES                                        YES                                         NO3
                      AFAA                                   YES                                        YES                                         NO4
                      Army IR2                               N/R                                        N/R                                         N/R
                      DeCA                                   YES                                        YES                                         YES
                      DCAA                                   YES                                        YES                                         YES
                      DCMA                                   YES                                        YES                                         YES
                      DFAS                                   YES                                        YES                                         YES
                      DISA                                   NO5                                        YES                                         NO5
                      DIA                                    N/R                                        N/R                                         N/R
                      DLA                                    YES                                        YES                                         YES
                      DOD IG                                 YES                                        YES                                         YES
                      MCNAFAS                                YES                                        NO6                                         YES
                      MDA                                    YES                                        YES                                         NO3
                      NGA                                    NO5                                        YES                                         NO4
                      NGB                                    N/R                                        N/R                                         N/R
                      NRO                                    N/R                                        N/R                                         N/R
                      NSA                                    N/R                                        N/R                                         N/R
                      NAS                                    YES                                        YES                                         YES
                      NEXCOM                                 NO7                                        YES                                         NO3
                      USSOCOM                                NO8                                        YES                                         NO4

                      1 	
                            Organizational Independence in this table refers to whether the audit organization reports to the head of the agency.
                      2 	
                            In a June 14, 2013, memorandum, the Secretary of the Army directed all Army Internal Review personnel to convert back
                            to GS-0511 series auditors.
                      3 	
                            AAFES, MDA, and NEXCOM perform nonaudit services, but neither AAFES nor MDA had internal policies governing
                            the performance of a nonaudit service, and NEXCOM did not have updated policies. MDA fills out a nonaudit services
                            statement form to document who requested the service; that the service was not done in accordance with GAGAS; and
                            that they used the GAGAS Conceptual Framework for Independence in determining whether to perform the requested
                            nonaudit service. However, this form does not contain a section to document the new nonaudit services requirement in
                            GAGAS 3.34 to evaluate and document the skill, knowledge, or experience of the management-appointed individual who
                            would oversee the nonaudit service.




20 │ DODIG-2014-089
                                                                                                                                  Appendixes



4 	
      AFAA, NGA, and USSOCOM stated they do not perform nonaudit services.
5 	
      DISA’s current audit policies are dated March 2011, and NGA’s are dated September 29, 2009. DISA and NGA are in the
      process of updating their policies. However, DISA and NGA revised their statement of independence form to implement
      the December 2011 GAGAS independence standard for auditor independence; and DISA developed a nonaudit services
      checklist.
6 	
      The Marine Corps Nonappropriated Fund Audit Service (MCNAFAS) does not report directly to the Commandant or
      Assistant Commandant, United States Marine Corps. MCNAFAS is situated in the Deputy Commandant, Programs and
      Resources (P&R) office and reports directly to the Assistant Deputy Commandant, P&R.
7 	
      NEXCOM IA current audit policies are dated 1997 (and updated as needed, but not re-dated). Based on the policies
      provided, we concluded that their audit policies were not updated to reflect the December 2011 GAGAS.
8 	
      USSOCOM did not have internal audit policies implementing the December 2011 GAGAS independence standards.
      However, during our review, they issued new internal audit policies on April 17, 2013, and these policies adequately
      implement the December 2011 GAGAS independence standards.

NR = Not Reviewed (see Appendix A Scope and Methodology for reasons).




                                                                                                                             DODIG-2014-089 │ 21
Appendixes




                 Appendix D
                 Best Practice for Formatting Auditor Statement of
                 Independence
                 After comparing 16 different auditor statements of independence from the DoD audit
                 organizations we reviewed, we suggest that the following be included in an auditor
                 statement of independence:

                         •	 document title (for example, Annual Statement of Independence or
                           Project-Specific Statement of Independence);

                         •	 fields for name, title, and fiscal or calendar year (for annual statement of
                           independence) and project title, project number, team member’s name, and
                           team member’s title (for project specific statement of independence);

                         •	 a paragraph referencing GAGAS and the audit organization’s internal
                           policies for independence;

                         •	 fields for auditors to state they are independent or they have a potential
                           impairment (and stating the potential impairment), and a place to sign and
                           date; and

                         •	 fields for the auditor’s supervisor to concur with the auditor’s stated
                           independence or how a potential impairment is dealt with (for example,
                           the auditor cannot audit in a certain area of the organization or the auditor
                           has been reassigned to another audit) and a place to sign and date.




22 │ DODIG-2014-089
                                                                                             Management Comments




Management Comments
The Auditor General, Department of the Army Comments



                                    DEPARTMENT OF THE ARMY
                                         U.S. ARMY AUDIT AGENCY
                            OFFICE OF THE PRINCIPAL DEPUTY AUDITOR GENERAL
                                            TH
                                      6000 6 STREET, BUILDING 1464
                                       FORT BELVOIR, VA 22060-5609




    SAAG-ZB                                                                       14 April 2014


    MEMORANDUM FOR Mr. Randolph R. Stone, Deputy Inspector General, Policy and
    Oversight, 4800 Mark Center Drive, Alexandria, VA 22350-1500

    SUBJECT: Official Reply to DODIG Report Implementation of 2011 Generally Accepted
    Government Auditing Standards Independence Standards at the DOD Audit
    Organizations, 7 March 2014 (Project No. D2013-DAPOIA-0011.001)


    1. The U.S. Army Audit Agency (AAA) has reviewed the subject draft report. We
    concur with the intent of the recommendation but not fully with the details in the report.

    2. The following paragraphs contain the review objective, conclusion, recommendation
    and our response:

        a. Objective: To determine whether the DOD audit organizations implemented the
    December 2011 Generally Accepted Government Auditing Standards (GAGAS)
    independence standards and whether the standards were being followed.

         b. Conclusion: [As the report relates to non-audit service provided to an audited
    entity] “. . .four of the five organizations did not determine and document whether the
    audited entity’s management designated an individual who possessed suitable skill,
    knowledge, or experience, and that the individual understood the services to be
    performed sufficiently to oversee them, as required by GAGAS 3.34. Our review of the
    project files, to include the issued final memo or report, did not disclose any impairment
    to independence because of this oversight.”

        c. Recommendation: We recommend that The Auditor General, Department of
    the Army ensure their audit organization perform all of the required independence
    analysis and document the results before accepting a non-audit service.

        d. AAA Response: AAA agrees with the intent of the recommendation as it relates
    to documenting the results of our independence analysis. However, we don’t agree that
    that Agency’s auditors were deficient in the independence analysis as required by
    GAGAS 3.34. When discussing the intent of the standard and our projects with technical
    assistance at GAO, we concluded that we did meet the intent of GAGAS 3.34, but did
    not adequately document our analysis. Agency non-audit service engagements, which
    are small in number, are not overseen by personnel from the audited entity, and for the
    projects selected by the DoDIG audit team, clients receiving our products did not
    oversee our work. We considered them functional subject matter experts, and,




                                                                                                   DODIG-2014-089 │ 23
Management Comments



                 The Auditor General, Department of the Army
                 Comments (cont’d)



                      SAAG-ZB
                      SUBJECT: Official Reply to DODIG Report Implementation of 2011 Generally Accepted
                      Government Auditing Standards Independence Standards at the DOD Audit
                      Organizations, 7 March 2014 (Project No. D2013-DAPOIA-0011.001)


                      therefore, these clients were fully aware of the service they requested and could decide
                      whether our product met their intent. As subject matter experts, they also had sufficient
                      knowledge of the area and had the ability to either accept or reject our results. This is
                      the essence of oversight.

                               Before accepting a non-audit service, we performed a thorough and
                      comprehensive evaluation to determine if the requested nonaudit services would impair
                      either the Agency’s or the auditor’s independence for conducting present or future
                      engagements at the entity that requested such services. This evaluation includes
                      determining the client’s understanding of the results of our services and our products.
                      On future engagements we plan to better document our evaluation and the client’s
                      understanding.

                               In the case of the project in question, management only provided the basic
                      information needed for us to perform our analysis. They did not oversee the project.
                      The audit team provided the client with a memorandum of understanding (MOU) that
                      had a comprehensive description of the services we agreed to provide and how the
                      results can and cannot be used. The MOU was included in the audit files.

                      3. We want to thank the DODIG audit team for their review. If you have any additional
                      questions or concerns,


                      FOR THE AUDITOR GENERAL:




                                                               JOSEPH P. BENTZ
                                                               Principal Deputy Auditor General

                      CF:
                      Program Director, Audit Policy and Coordination, USAAA




                                                                  2




24 │ DODIG-2014-089
                                             Management Comments



Director, Defense Information Systems Agency Comments




                                                   DODIG-2014-089 │ 25
Management Comments



                 Director, Defense Information Systems Agency
                 Comments (cont’d)




26 │ DODIG-2014-089
                                               Management Comments



Director, National Geospatial-Intelligence Agency Comments




                                                     DODIG-2014-089 │ 27
Management Comments



                 Director, National Geospatial-Intelligence Agency
                 Comments (cont’d)




28 │ DODIG-2014-089
                                                    Management Comments



Director, National Geospatial-Intelligence Agency
Comments (cont’d)




                                                          DODIG-2014-089 │ 29
Management Comments



                 Director, National Geospatial-Intelligence Agency
                 Comments (cont’d)




30 │ DODIG-2014-089
                                                    Management Comments



Director, National Geospatial-Intelligence Agency
Comments (cont’d)




                                                          DODIG-2014-089 │ 31
Management Comments



                 Director, National Geospatial-Intelligence Agency
                 Comments (cont’d)




32 │ DODIG-2014-089
                                                    Management Comments



Director, National Geospatial-Intelligence Agency
Comments (cont’d)




                                                          DODIG-2014-089 │ 33
Management Comments



                 Director, National Geospatial-Intelligence Agency
                 Comments (cont’d)




34 │ DODIG-2014-089
                                            Management Comments



Director, Missile Defense Agency Comments




                                                  DODIG-2014-089 │ 35
Management Comments



                 Director, Missile Defense Agency Comments (cont’d)




36 │ DODIG-2014-089
                                              Management Comments



Commander, United States Special Operations
Command Comments




                                                    DODIG-2014-089 │ 37
Management Comments



                 Director and Chief Executive Officer, Army and Air Force
                 Exchange Service Comments




                                                    ARMY & AIR FORCE EXCHANGE SERVICE
                                                               P. O. Box 660202
                                                             Dallas, TX 75226-0202
                                                                 (214) 312-2011




                                                                                                 31 March 2014

                      FROM:      Director and Chief Executive Officer, Army & Air Force Exchange Service

                      TO:        Department of Defense Inspector General, Deputy Inspector General for Policy
                                 and Oversight

                      SUBJECT: Management Response, Implementation of 2011 Generally Accepted
                               Government Auditing Standards Independence Standards at the DoD Audit
                               Organizations, Project No. D2013-DAPOIA-0011.001


                      1.    We concur with the findings and recommendations. Noted below are our
                            management responses:

                            a.   Recommendation A.3 Concur. The AAFES Audit Division established internal
                                 policies and procedures detailing how nonaudit service requests will be
                                 assessed and documented for potential impairments to independence.
                                 Completion date was 31 December 2013.

                            b.   Recommendation B.1 Concur. The AAFES Audit Division established internal
                                 policies and procedures to ensure the audit organization performs all the
                                 required independence analysis and documents the results before accepting a
                                 nonaudit service. Completion date was 31 December 2013.

                      2.    Thank you for your team’s assistance in identifying the procedures required and
                            suggestions for complying with the requirements for providing nonaudit services in
                            accordance with generally accepted government auditing standards.




                                                                        THOMAS C. SHULL
                                                                        Director/CEO




38 │ DODIG-2014-089
                                         Management Comments



Commander, Naval Supply Systems Command Comments




                                               DODIG-2014-089 │ 39
Management Comments



                 Commander, Naval Supply Systems Command
                 Comments (cont’d)




40 │ DODIG-2014-089
                                          Management Comments



Commander, Naval Supply Systems Command
Comments (cont’d)




                                                DODIG-2014-089 │ 41
Management Comments



                 Commander, Naval Supply Systems Command
                 Comments (cont’d)




42 │ DODIG-2014-089
                                                                              Acronyms and Abbreviations




Acronyms and Abbreviations
          AAA Army Audit Agency
      AAFES IR Army and Air Force Exchange Service Internal Review
         AFAA Air Force Audit Agency
      ARMY IR U.S. Army Internal Review
        CONUS Continental United States
           CSA Control Self-Assessment
         DCAA Defense Contract Audit Agency
      DCMA IR Defense Contract Management Agency Internal Review
       DeCA IA Defense Commissary Agency Internal Audit
       DFAS IR Defense Finance and Accounting Service Internal Review
       DIA OIG Defense Intelligence Agency Office of Inspector General
       DISA IR Defense Information Systems Agency Internal Review
        DLA IR Defense Logistics Agency Internal Review
      DoD OIG Department of Defense Office of Inspector General
        GAGAS Generally Accepted Government Auditing Standards
          GAO Government Accountability Office
          GPC Government Purchase Card
            IG Inspector General
     MCNAFAS Marine Corps Nonappropriated Funds Audit Service
       MDA IR Missile Defense Agency Internal Review
          NAS Naval Audit Service
   NEXCOM IA Naval Exchange Service Command Internal Audit
  NEXCOM OIA Naval Exchange Service Command Office of Internal Audit
      NGA OIG National Geospatial-Intelligence Agency Office of Inspector General
        NGB IR National Guard Bureau Internal Review
      NRO OIG National Reconnaissance Organization Office of Inspector General
      NSA OIG National Security Agency Office of Inspector General
      OCONUS Outside Continental United States
           OIG Office of Inspector General
 USSOCOM OIG U.S. Special Operations Command Office of Inspector General




                                                                                         DODIG-2014-089 │ 43
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
